No. 19-267

In the Supreme Court of the United States
OUR LADY OF GUADALUPE SCHOOL,
Petitioner,
v.
AGNES MORRISSEY-BERRU,
Respondent.

CERTIFICATE OF SERVICE

I, Jennifer A. Lipski, a member of the United States Supreme
Court bar, hereby certify that on October 17, 2019, one (1) copy of the
“MOTION TO EXTEND THE DEADLINE TO FILE RESPONDENT’S
OPPOSITION TO PETITION FOR WRIT OF CERTIORARI BY TEN
(10) DAYS (UP TO AND INCLUDING OCTOBER 28, 2019)” in the
above-captioned case was served on all parties required, pursuant to
U.S. Supreme Court Rule 29.5(c), on the following, as indicated below:
served in hard copy by third-party commercial carrier to the following
counsel of record for the parties at the address indicated below, and
also served by electronic transmission to the below email address:
ERIC CHRISTOPHER RASSBACH,ESQ.
THE BECKET FUND FOR RELIGIOUS LIBERTY
1200 New Hampshire Ave., N.W., Suite 700
Washington, D.C. 20036
(202) 955-0095
erassbach@becketlaw.org
Counsel of Record for Petitioner, St. James School

All parties required to be served have been served._
/s/ Jennifer A. Lipski
JENNIFER A. LIPSKI
JML LAW, A.P.L.C.
5855 Topanga Canyon Blvd., Suite 300
Woodland Hills, CA 91367
(818) 610-8800
jennifer@jmllaw.com
Counsel for Applicant,
Respondent Agnes Morrissey-Berru

